September 28, 2000

GARY L. MCCURDY
VICE PRESIDENT, ALLEGHENY AREA OPERATIONS

SUBJECT:	 Audit Report – Erie Performance Cluster’s Process for Administering
          Continuation of Pay Leave Benefits (Report Number HC-AR-00-002)

This report presents the results of our self-initiated audit of the Erie Performance
Cluster’s Process for Administering Continuation of Pay Leave Benefits (Project
Number 00RA058HC004). This report is the second of seven reports we plan to issue
concerning the process for approving and tracking continuation of pay leave benefits in
the Allegheny Area.
The audit revealed opportunities for improving the process of administering these
benefits and complying with Postal Service policies. We provided three
recommendations to improve the process. Management agreed with our finding and
recommendations and the actions taken or planned should correct the issues discussed
in this report. Management’s comments and our evaluation of these comments are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Ms. Katherine K. Johnson, director, Health
Care Fraud, or me at (703) 248-2300.



Billy Sauls
Assistant Inspector General
 for Business Protection

Attachment

cc: 	Yvonne D. Maguire
     Wayne L. Eggiman
     Timothy F. O’Reilly
     Robert J. Rutkosky
     Richard J. Cellino
     John R. Gunnels
Erie Performance Cluster’s Process for                 HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


                                   TABLE OF CONTENTS

Executive Summary
                                         i

Part I 


Introduction 
                                            1

   Background                                             1

   Objective, Scope, and Methodology                      2

   Prior Audit Coverage                                   3


Part II 


Audit Results                                             4


   Continuation of Pay Leave Benefits                     4

   Recommendations                                        7
   Management’s Comments                                  7

   Evaluation of Management’s Comments                    8


Appendix A. Prior Audit Coverage                          9


Appendix B. Management’s Comments                        11 

Erie Performance Cluster’s Process for                                           HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


                                  EXECUTIVE SUMMARY
 Introduction                  We completed a self-initiated audit to determine whether the
                               Allegheny Area’s process for approving and tracking the use
                               of continuation of pay leave benefits complied with the
                               Department of Labor, Office of Workers’ Compensation
                               Programs and United States Postal Service (Postal Service)
                               policies. This report on the Allegheny Area’s Erie
                               Performance Cluster is the second of seven reports we plan
                               to issue concerning the process for approving and tracking
                               continuation of pay leave benefits in the Allegheny Area.

 Results in Brief              The audit revealed the Erie Performance Cluster's process
                               for approving and tracking continuation of pay leave benefits
                               was generally sufficient. Our audit disclosed that the Erie
                               Performance Cluster Control Office staff did effectively
                               monitor continuation of pay usage. Specifically, only 2 out
                               of the 32 continuation of pay injury claims reviewed had
                               leave benefit errors that required pay adjustments. These
                               errors resulted in continuation of pay overpayments totaling
                               about $160. However, we determined additional controls
                               were required to reduce the risk of continuation of pay
                               overpayments and unnecessary pay adjustments.
                               Consequently, the Erie Performance Cluster can improve
                               the monitoring and documentation of continuation of pay
                               leave benefits by implementing an additional management
                               control and following existing policies to prevent
                               continuation of pay overpayments and unnecessary pay
                               adjustments.

 Summary of                    To correct the deficiencies associated with continuation of
 Recommendations               pay leave benefits, we recommended that Postal Service
                               managers implement a new management control procedure
                               for reconciling continuation of pay time and attendance
                               reporting and follow established procedures for monitoring
                               and documenting continuation of pay leave benefits. In
                               addition, Postal Service managers should issue a district-
                               wide policy requiring supervisors to ensure the proper
                               completion and retention of continuation of pay leave
                               requests.




                                                    i
Erie Performance Cluster’s Process for                                            HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


 Summary of                    Management agreed with our recommendations and
 Management’s                  implemented corrective actions. Management implemented
 Comments                      corrective actions by (1) instituting a new management
                               control procedure to perform front-end reconciliation of
                               continuation of pay hours; (2) instructing the manager, Injury
                               Compensation to use the Continuation of Pay/Leave
                               Without Pay-Injury on Duty Timekeeping Worksheet to
                               document every injury claim file; and (3) issuing a district-
                               wide policy requiring all supervisors to follow established
                               Postal Service timekeeping and accounting guidelines, and
                               management control procedures for proper completion of all
                               continuation of pay leave requests.

                               Management comments, in their entirety, are included in
                               Appendix B.

 Overall Evaluation of         Management’s comments were responsive to our finding
 Management’s                  and recommendations and we believe the actions taken
 Comments                      should correct the issues identified in this report.




                                                    ii
Erie Performance Cluster’s Process for                                                              HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


                                            INTRODUCTION
    Background 	                  The Department of Labor, Office of Workers’ Compensation
                                  Programs has sole responsibility for administering the
                                  Federal Employees' Compensation Act. The Code of
                                  Federal Regulations, Title 20, Part 10, April 1, 1999,
                                  establishes the rules for claiming benefits under the Federal
                                  Employees' Compensation Act. Specifically, Section 10.200
                                  of the Code of Federal Regulations states, in part, that the
                                  employer must continue an employee’s regular pay for up to
                                  a maximum of 45 calendar days of wage loss due to
                                  disability and/or medical treatment after a traumatic injury.
                                  This provision is called continuation of pay (COP). COP is
                                  considered regular income and unlike workers’
                                  compensation wage loss benefits, COP is subject to income
                                  taxes and other payroll deductions applicable to regular
                                  income. The intent of the COP provision is to eliminate
                                  interruption of the employee’s income during the period
                                  immediately after a job-related traumatic injury, while the
                                  Office of Workers’ Compensation Programs adjudicates1 the
                                  employee’s injury claim. After entitlement to COP leave
                                  benefits expires, the employee may apply for workers’
                                  compensation wage loss benefits or use personal leave.

                                  The United States Postal Service (Postal Service) is
                                  geographically divided into ten decentralized areas and
                                  Metro Operations. During fiscal years (FY) 1998 and 1999,
                                  postal-wide payments for COP leave benefits averaged
                                  $22.5 million annually for approximately 23,000 employees.
                                  The Allegheny Area averaged $2.2 million in annual COP
                                  leave benefit payments for approximately 2,400 employees
                                  over the same two-year time span.

                                  The Allegheny Area is geographically divided into
                                  ten performance clusters including the Erie Performance
                                  Cluster. The Postal Service’s Injury Compensation Control
                                  Office (the Control Office) personnel manage all injury
                                  claims for each of the performance clusters. In addition,
                                  Control Office personnel are responsible for authorizing
                                  employee-requested COP leave benefits.



1
 The process whereby the Office of Workers’ Compensation Programs considers all information submitted by the
employee, employer, and from its own investigation to reach a decision regarding entitlement to Federal Employees’
Compensation Act benefits.



                                                        1
Erie Performance Cluster’s Process for                                           HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


 Objective, Scope, and         Our audit objective was to determine whether the Allegheny
 Methodology                   Area, Erie Performance Cluster's process for approving and
                               tracking the use of COP was in compliance with the
                               Department of Labor, Office of Workers’ Compensation
                               Programs, and Postal Service policies. In addition, we
                               reviewed the management controls applicable to COP leave
                               benefits.

                               To accomplish our objectives, we reviewed Postal Service
                               policies and procedures associated with COP leave
                               benefits. We interviewed representatives from the Postal
                               Service Headquarters, Health and Resource Management
                               office and Erie Performance Cluster, Control Office. In
                               addition, we contacted representatives from the Department
                               of Labor, Office of Workers' Compensation Programs to
                               discuss certain aspects of the COP guidance.

                               This audit was limited to FY 2000 COP injury claims
                               administered by the Erie Performance Cluster for pay
                               periods 20 through 26 in calendar year 1999 and pay
                               periods 1 through 7 in calendar year 2000. We designed a
                               stratified sampling procedure for the Allegheny Area,
                               including the area Control Office and its ten performance
                               clusters. The Erie Performance Cluster was one of the
                               performance clusters included in the census stratum. We
                               identified 32 COP injury claims in the Erie Performance
                               Cluster’s payroll sample frame for the audited period. As
                               such, we reviewed all 32 COP injury claims during our audit
                               and will add the actual results from the census to projected
                               results to achieve overall projected results for the entire
                               Allegheny Area.

                               We relied extensively on computer-processed payroll data
                               contained in the Postal Service Payroll Pay Data and
                               Employees Master Files. We also relied on prior audit work
                               performed by the Postal Service Office of Inspector General
                               on the FY 1999 Postal Service financial statement audit to
                               assess the Payroll function’s general and application
                               controls. In addition, we traced all 32 COP injury claims
                               identified in the census data from the Payroll Pay Data and
                               Employee Master Files to the source documentation.
                               Based on prior audit results and alternative testing
                               procedures performed during the audit, we assessed the
                               reliability of these data, including relevant general and
                               application controls, and found them adequate. As a result




                                                    2
Erie Performance Cluster’s Process for                                              HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


                               of tests and assessments, we consider the computer-
                               processed data significantly reliable to satisfy the audit
                               objectives.

                               We conducted the audit from April 2000 through
                               September 2000 in accordance with generally accepted
                               government auditing standards and included such tests of
                               management controls as deemed necessary under the
                               circumstances. We also discussed our conclusions and
                               observations with appropriate management officials and
                               included their comments, where appropriate.

 Prior Audit Coverage 	 Since February 1996, the President’s Council on Integrity
                        and Efficiency issued one consolidated audit report on
                        workers’ compensation to include COP issues. In addition,
                        the Postal Service Office of Inspector General issued two
                        audit reports related to the Eagan, Minnesota, Information
                        Systems and Accounting Service Center for the fiscal year
                        ended September 30, 1999. The Eagan, Minnesota,
                        Information Systems and Accounting Service Center has
                        four departments. Our prior audit focused on two out of the
                        four departments. Of these, the Integrated Business
                        Systems Solutions Center concentrates on support and
                        development for payroll and other clients. In addition, the
                        accounting service center is responsible for a variety of
                        accounting activities to include the payroll function. See
                        Appendix A for prior audit report details.




                                                    3
Erie Performance Cluster’s Process for                                                            HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


                                           AUDIT RESULTS
    Continuation of Pay           The Erie Performance Cluster Control Office staff’s
    Leave Benefits                monitoring of COP leave benefits was generally sufficient.
                                  Specifically, we only found 2 out of the 32 COP injury claims
                                  reviewed had COP benefit errors that required pay
                                  adjustments2 to correct employees’ applicable sick, annual
                                  or other leave balances. These COP benefit errors resulted
                                  in overpayments totaling approximately $160.3 However,
                                  we did identify additional controls to reduce the risk of COP
                                  overpayments and unnecessary pay adjustments. The
                                  Control Office staff did not perform a front-end reconciliation
                                  of COP hours to ensure employees were initially entitled to
                                  COP leave benefits before the COP hours were finalized in
                                  the payroll system. In addition, supervisors did not always
                                  follow established timekeeping and accounting procedures
                                  when documenting COP leave benefits. Consequently, the
                                  Erie Performance Cluster can improve the monitoring and
                                  documentation of COP leave benefits by implementing an
                                  additional management control and following established
                                  controls to prevent COP overpayments and unnecessary
                                  pay adjustments.

    Monitoring                    Monitoring COP usage includes actively reviewing injury
    Continuation of Pay           claim files to ensure appropriate COP leave benefits are
    Usage                         provided to employees. Postal Service Handbook, EL-505,
                                  Injury Compensation, December 1995, Chapter 13,
                                  “Timekeeping and Accounting,” provides guidance for
                                  monitoring COP. Chapter 13, Section 13.1, “Tracking Time
                                  for COP,” states the Control Office staff must monitor COP
                                  hours and days to ensure employees do not receive COP
                                  leave benefits for more than a 45-calendar day period for
                                  any one injury associated with the tracking of COP leave
                                  benefits. In addition, the guidance requires the Control
                                  Office staff to actively manage injury claims to ensure
                                  employees receive the COP leave benefits they are entitled.



2
  The Postal Service estimates each pay adjustment costs $75 on average and in some extreme cases, pay
adjustments could cost as much as $175, based on the time expended by responsible Postal Service employees.
For audit reporting purposes, we used the lower estimate of $75 per pay adjustment.
3
  COP overpayments result when COP hours are paid in error and the employee does not have any available sick or
annual leave to cover the absence mistakenly recorded as COP hours. COP overpayments also result when COP
hours are paid in error while the employee is simultaneously receiving wage compensation payments from the Office
of Workers’ Compensation Programs. Consequently, recovery procedures must be executed to collect overpaid COP
hours from the employee.




                                                       4
Erie Performance Cluster’s Process for                                                               HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


                                   The audit revealed the Control Office staff adequately
                                   monitored COP usage. Our review identified COP leave
                                   benefit errors for only 2 out of the 32 COP injury claims
                                   reviewed. The COP benefit errors led to unnecessary pay
                                   adjustments and COP overpayments of approximately
                                   $160. However, we identified the need for a front-end
                                   reconciliation control and the use of an existing worksheet
                                   that could reasonably reduce the risk of future COP
                                   overpayments and unnecessary pay adjustments.

                                   Section 13.17, “Recovering Excessive COP Hours,” states
                                   the Control Office staff should use the Workers’
                                   Compensation–Injury on Duty report4 to review COP data.
                                   The report is used to reconcile COP leave benefits after
                                   those leave benefits have been reported and paid. We
                                   found the Control Office staff did reconcile the Workers'
                                   Compensation–Injury on Duty report with COP injury claims
                                   every accounting period as required by Postal Service
                                   guidance.

                                   The existing report is a back-end monitoring control and, if
                                   used as intended, can readily identify inappropriately
                                   authorized COP leave benefits. However, the existing
                                   report was not designed to determine whether employees
                                   were initially entitled to COP leave benefits. Therefore,
                                   front-end reconciliation control was needed to assist the
                                   Control Office staff in weekly monitoring of COP hours. We
                                   determined the Postal Service already has a front-end
                                   reconciliation capability within the electronic time clock
                                   system.5 The electronic time clock system can generate a
                                   time and attendance exception report6 (ETC-245P1) to
                                   identify COP and other hourly leave categories. In our
                                   opinion, the use of this front-end reconciliation cabability, if
                                   implemented, could reasonably reduce the recording of
                                   inappropriate COP hours, thereby avoiding unnecessary
                                   payroll adjustments.



4
  This report is automatically generated each accounting period.
5
  The electronic time clock system is used to report time and attendance for the majority of Postal Service employees
in the Erie Performance Cluster. However, the electronic time clock system does not capture time and attendance for
rural carriers.
6
  An electronic time clock exception report should be requested no later than Friday of each week that details all
continuation of pay time reporting. The review and validation of the continuation of pay time reporting should be
completed before the time reporting is finalized into the payroll system. Such a weekly review could allow
management personnel in the Erie Performance Cluster to avoid unnecessary and costly payroll adjustments.




                                                         5
Erie Performance Cluster’s Process for                                          HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


                               Further, we determined the Control Office staff did not
                               annotate the case files to document authorized COP usage.
                               Chapter 13, Section 13.1 states the “COP/Leave Without
                               Pay-Injury on Duty Timekeeping Worksheet,” should be
                               used for assisting Control Office staff with tracking actual
                               COP hours and days used by an employee. The Control
                               Office staff did not use the COP/Leave Without Pay-Injury
                               on Duty Timekeeping Worksheet to monitor employee COP
                               hours and days. Had the Control Office staff used the
                               worksheet, the COP leave benefits paid for exceeding the
                               45-calendar day entitlement period for any one injury and
                               unnecessary pay adjustments could have been avoided.
                               Furthermore, proper use of the COP/Leave Without Pay-
                               Injury on Duty Timekeeping Worksheet provides internal
                               staff and external reviewers the ability to obtain a timely
                               chronological listing of events that have occurred on each
                               individual injury claim.

 Documenting Requests Proper timekeeping and accounting procedures are
 for Continuation of Pay essential for effective management and administration of
 Leave Benefits          the injury compensation program. Postal Service
                         timekeeping and accounting guidelines provided special
                         requirements for COP. For instance, a supervisor must
                         ensure a Form 3971 is completed promptly after being
                         advised of an employee request for COP leave benefits.
                         When a traumatic injury occurs and employees are unable
                         to initiate the Form 3971 to request COP leave benefits,
                         supervisors are expected to perform this function. The
                         senior installation official is required to retain Forms 3971
                         for two years from the date the leave is taken or
                         disapproved. Contrary to this guidance, supervisors did not
                         always follow established procedures for documenting
                         requests for COP leave benefits. Our review disclosed that
                         Forms 3971 for 18 out of the 32 injury claims were either
                         improperly prepared or did not exist. We were unable to
                         reconcile requested COP leave benefits with paid COP
                         hours due to improperly completed or missing Forms 3971.

                               Although Forms 3971 were improperly prepared or missing,
                               we used other injury claim file documentation to determine
                               appropriate COP leave benefits. Employees must complete
                               a Form 3971 to document requested COP leave benefits,
                               which are not automatically provided to injured employees.
                               Therefore, improperly prepared or missing Forms 3971
                               made it difficult to determine whether employees initially




                                                    6
Erie Performance Cluster’s Process for                                              HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


                               requested any COP leave benefits. Consequently, without
                               an adequate audit trail, we are not reasonably assured that
                               all COP hours recorded in the payroll system resulted from
                               employee requests for COP leave benefits

 Recommendation                We recommend the vice president, Allegheny Area, improve
                               the monitoring and documentation of requested continuation
                               of pay leave benefits within the Erie Performance Cluster by
                               directing district and plant managers to:

                               1. Direct the manager, Human Resources, in coordination
                                  with the manager of the Injury Compensation Control
                                  Office, to implement a new management control
                                  procedure to perform a front-end reconciliation of
                                  continuation of pay hours. The management control
                                  should require Injury Compensation Control Office
                                  personnel to perform a weekly review and validation of
                                  continuation of pay hours before time accounting is
                                  finalized in the payroll system.

 Management’s                  Management concurred with the recommendation and
 Comments                      stated they have implemented a process to perform front-
                               end reconciliation of continuation of pay hours.

 Recommendation                2. Direct the manager, Human Resources, to instruct the
                                  manager of the Injury Compensation Control Office to
                                  reemphasize using the COP/Leave Without Pay-Injury
                                  on Duty Timekeeping Worksheet to monitor employee
                                  continuation of pay hours and days. The manager
                                  should require each human resource specialist to
                                  include the worksheet in the injury claim files to facilitate
                                  timely internal and external review of the files.

 Management’s                  Management concurred with the recommendation and
 Comments                      stated that they have instructed the manager, Injury
                               Compensation to use the COP/Leave Without Pay-Injury on
                               Duty Timekeeping Worksheet to monitor employee
                               continuation of pay hours and days. In addition, the
                               worksheet will be maintained in the injury claim files.




                                                    7
Erie Performance Cluster’s Process for                                                           HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


    Recommendation               3. Issue a district-wide policy requiring every supervisor to
                                    follow established Postal Service timekeeping and
                                    accounting guidelines as it pertains to continuation of
                                    pay leave benefits. Additionally, the district-wide policy
                                    should include:

                                            a)	 Instructions detailing supervisory
                                                responsibilities for ensuring the proper
                                                completion of continuation of pay leave
                                                requests.7

                                            b)	 New management control procedures requiring
                                                proper processing of all continuation of pay
                                                leave requests to the finance and timekeeping
                                                elements and retention of supporting
                                                documentation in employee injury claim files.

    Management’s                 Management concurred with the recommendation and
    Comments                     stated that they will issue a district-wide continuation of pay
                                 policy memorandum. The policy memorandum will address
                                 supervisory responsibilities for following established Postal
                                 Service timekeeping and accounting guidelines and
                                 management control procedures for proper completion of all
                                 continuation of pay leave requests. In addition, the
                                 manager, Injury Compensation will retain copies of all
                                 continuation of pay leave requests in the employee injury
                                 claim files.

    Evaluation of                Management’s comments were responsive to our finding
    Management’s                 and recommendations and we believe the actions taken
    Comments                     should correct the issues identified in this report.




7
Employee requests for leave hours are reported on PS Form 3971 “Request for or Notification of Absence.”




                                                       8
Erie Performance Cluster’s Process for                                        HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


                     APPENDIX A. PRIOR AUDIT COVERAGE


•	 The Postal Service Office of Inspector General issued audit report number
   FR-AR-00-006, Fiscal Year 1999 Postal Service Financial Statement Audit – Eagan
   Information Service Center, February 25, 2000. The audit report detailed the results
   of an audit on the financial activities and accounting records at the Eagan,
   Minnesota, Information Systems and Accounting Service Center (formerly the
   Minneapolis Information Systems and Accounting Service Center) for the fiscal year
   ended September 30, 1999. The audit was conducted in support of the independent
   public accounting firm’s overall Postal Service financial statement audit. The
   objectives of the audit were to determine whether:

        1. Financial accounting policies and procedures provide for an adequate internal
           control structure and are in compliance with generally accepted accounting
           principles.

        2. General ledger account balances for assets, liabilities, equity, income,
           expenses, and commitments of the Postal Service are fairly stated in the
           national consolidated trial balance in accordance with generally accepted
           accounting principles.

        3. General ledger account balances conform to the general classification of
           accounts of the Postal Service on a basis consistent with that of the previous
           year.

    The audit disclosed that management’s policies, accounting procedures, and internal
    controls conformed with generally accepted accounting principles. The audit report
    did identify two internal control weaknesses concerning the accuracy of back pay
    awards and terminal leave payments. As part of the review, they reviewed the
    internal controls, tested transactions, and verified account balances. The audit was
    conducted from November 1998 through February 2000 in accordance with
    generally accepted government auditing standards and included such tests of
    internal controls, as were considered necessary under the circumstances.

•	 The Postal Service Office of Inspector General also issued audit report number
   FR-AR-99-009, Fiscal Year 1999 Information System Controls, Minneapolis
   Information Service Center, September 29, 1999. The audit report detailed the
   results of an audit on the information system controls at the Minneapolis Information
   Service Center. The audit was performed as part of the FY 1999 financial statement
   audit. The objective of the audit was to evaluate the adequacy of general controls
   over information systems at the Minneapolis Information Service Center. The audit
   concluded that general controls over software and data security at the Minneapolis
   Information Service Center (now referred to as the Eagan Information Service
   Center) were generally adequate. The audit report did identify issues requiring



                                                    9
Erie Performance Cluster’s Process for                                     HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


    corrective actions regarding mainframe security, application change control, local
    area network security, and UNIX security. This audit was conducted from December
    1998 to August 1999 in accordance with generally accepted government auditing
    standards and included tests of internal controls as were necessary.

•	 The President's Council on Integrity and Efficiency, Audit Committee issued a
   consolidated audit report number 02-96-223-04-431, Consolidated Report on the
   Audit of Employing Agency Workers’ Compensation Programs, February 16, 1996,
   on workers’ compensation. The Department of Labor, Office of Inspector General
   led this audit of 13 Inspector General agencies. The audit was designed to evaluate
   the effectiveness and efficiency of employing agency workers' compensation
   programs and the audit report summarizes the results of those 13 audits.
   Specifically, the audit report provided an observation on continuation of pay leave
   benefits.

    The Department of Transportation, Office of Inspector General was the only agency
    that reported on continuation of pay leave benefits. The Department of
    Transportation, Office of Inspector General reported 26 percent of the claims
    reviewed received continuation of pay although:

       •	 The Office of Workers’ Compensation Programs denied compensation claims.
       •	 The time for eligible use had expired.
       •	 No claim had been submitted to the Office of Workers’ Compensation
          Programs.

    The Department of Transportation, Office of Inspector General recommended
    employees' leave should be charged retroactively. Each Office of the Inspector
    General was responsible for follow-up action on specific recommendations made to
    employing agency officials. Overall, employing agency officials agreed that
    improvements were needed in the workers' compensation program.




                                                    10
Erie Performance Cluster’s Process for                   HC-AR-00-002
 Administering Continuation of Pay Leave Benefits


                   APPENDIX B. MANAGEMENT’S COMMENTS




                                                    11
Erie Performance Cluster’s Process for                   HC-AR-00-002
 Administering Continuation of Pay Leave Benefits




                                                    12
